          Office of Inspector General




September 29, 2006

JERRY D. LANE
VICE PRESIDENT, CAPITAL METRO AREA OPERATIONS

SUBJECT:       Audit Report – Vehicle Management – National Trailer Lease
               Requirements – Capital Metro Area
               (Report Number NL-AR-06-013)

This report is one in a series and presents results from our self-initiated nationwide audit
of trailer fleet management (Project Number 05YG001NL000). The objectives of our
audit are to determine whether fleet management is effective and to identify
opportunities to save money.

In September 2000, U.S. Postal Service Headquarters signed a National Trailer Lease
to acquire 4,475 trailers to transport mail. The contract plus renewal option was for a
12-year period and would cost the Postal Service more than one-quarter billion dollars
over that period. Headquarters officials allocated 150 national lease contract trailers
to the Capital Metro Area. This report focuses on the Capital Metro Area and the
150 trailers allocated to it.

The Postal Service can more effectively manage the National Trailer Lease fleet by
improving fleet management control. Because of fleet management control
weaknesses, the Postal Service may have missed an opportunity to save $402,478 by
allocating more trailers to the Capital Metro Area than the area needed. However, the
Postal Service has an opportunity to save $1,514,170 by returning unneeded trailers.
This represents $402,478 in questioned costs and $1,514,170 in funds put to better use,
and will be reported as such in our Semiannual Report to Congress. We recommended
that the Capital Metro Area improve management control and return unnecessary
trailers to the control of Postal Service Headquarters for reallocation, or return them to
the leasing contractor. Management agreed with our recommendations.
Management’s comments and our evaluation of these comments are included in the
report.

The U.S. Postal Service Office of Inspector General (OIG) considers all the
recommendations significant, and therefore requires OIG concurrence before closure.
Consequently, the OIG requests written confirmation when corrective actions are
completed. These recommendations should not be closed in the follow-up tracking
system until the OIG provides written confirmation the recommendations can be closed.
We appreciate the cooperation and courtesies provided by your staff during our audit. If
you have any questions or need additional information, please contact Joe Oliva,
Director, Transportation, or me at (703) 248-2100.


 E-Signed by Colleen McAntee
ERIFY authenticity with ApproveI



Colleen A. McAntee
Deputy Assistant Inspector General
 for Core Operations

Attachments

cc: Patrick R. Donahoe
    William P. Galligan
    Susan Brownell
    Anthony M. Pajunas
    Dwight Young
    Steven R. Phelps
Vehicle Management – National Trailer Lease Requirements –                           NL-AR-06-013
 Capital Metro Area


                                        INTRODUCTION
Background                       During fiscal year 2000, the U.S. Postal Service began a
                                 major, multiphased, corporate initiative to terminate local
                                 trailer contracts, centralize trailer acquisition at Postal
                                 Service Headquarters, and commit to a single national
                                 contractor.

                                 In September 2000, the Postal Service signed a “National
                                 Trailer Lease” for 4,475 trailers with Transportation
                                 International Pool, Inc., a wholly owned trailer and
                                 equipment leasing subsidiary of General Electric. The
                                 anticipated cost of the 12-year agreement was more than
                                 $250 million. Management stated the centralized national
                                 contract would reduce the average cost to lease a trailer
                                 from $11.57 to $10.21 per day and save the Postal Service
                                 more than $2.2 million annually.




  National Trailer Lease
  equipment leaving the
Washington Bulk Mail Center
      June 4, 2004.

  The National Trailer Lease
   was intended to provide
trailers to transport mail and
          equipment.




                                 In March 2002, the New York Metro Area requested
                                 1,500 additional trailers under National Trailer Lease
                                 Phase II. The lease plus renewal option was again 12 years
                                 and the anticipated cost exceeded $40 million. New York
                                 Area officials explained they were excluded when Postal
                                 Service Headquarters negotiated Phase I since their local
                                 contracts would not have expired for 3 years.



                                                  1
Vehicle Management – National Trailer Lease Requirements –                       NL-AR-06-013
 Capital Metro Area


                              We audited National Trailer Lease Phase I and Phase II
                              (see Appendix A) and concluded the Postal Service did not
                              properly analyze the trailer procurement decision.
                              Specifically:

                                  •   The Postal Service did not adequately consider the
                                      number of trailers required and, consequently, may
                                      have leased more trailers than needed.

                                  •   The Postal Service could have saved money by
                                      purchasing needed trailers instead of leasing them.

                                  •   The acquisition decision was not supported by
                                      reliable data, necessary documentation, or adequate
                                      records.

                                  •   The acquisition decision did not comply with Postal
                                      Service policy or the analytical discipline
                                      commensurate with a $250 million trailer acquisition.

                              We recommended that, in accordance with Postal Service
                              policy controlling “major operating expense investments,”
                              management prepare a Decision Analysis Report (DAR)
                              and submit it to the Board of Governors for approval.

                              Management agreed that New York (National Trailer Lease
                              Phase II) already had more trailers than needed, agreed to
                              immediately return 300 trailers to suppliers, and estimated
                              that returning trailers would save more than $1 million
                              annually. Management acknowledged that Postal Service
                              computer data was unreliable and did not accurately
                              capture all operational requirements, and stated they need a
                              comprehensive analysis to determine if their decision
                              regarding trailer leasing was appropriate. However, senior
                              management explained that they did not want to prepare a
                              formal DAR because such an analysis would require Board
                              of Governors’ approval.

                              Regarding our conclusion that the Postal Service could save
                              money by purchasing trailers instead of leasing them, senior
                              management explained that at the time of the initial leasing
                              decision, purchase was not feasible because the Postal
                              Service was almost at the debt ceiling of $15 billion and,
                              due to concerns about debt, was not in a position to
                              purchase trailers.


                                                 2
Vehicle Management – National Trailer Lease Requirements –                                 NL-AR-06-013
 Capital Metro Area



                              Senior management also explained the National Trailer
                              Lease provided an advantage over purchased trailers
                              because:

                                  •   The lease provided the flexibility to have a trailer
                                      inventory only when and where trailers were needed.

                                  •   Unlike purchased trailers, there was no obligation to
                                      maintain a specific number of trailers in inventory
                                      since unneeded trailers could be returned to the
                                      leasing contractor.

Trailer Allocation to the     After they signed the National Trailer Lease, Postal Service
Capital Metro Area            officials allocated 150 trailers to the Capital Metro Area,
                              which subsequently allocated 118 to the Washington, DC,
                              Bulk Mail Center (BMC). The Capital Metro Area allocated
                              the remaining 32 Capital Metro Area trailers to the Dulles
                              Processing and Distribution Center (P&DC) and the
                              Richmond, Virginia P&DC as indicated below.
                                            Allocation of National Lease Trailers to the
                                                        Capital Metro Area

                                        Facility               Percentage         Allocated Trailers

                              Washington BMC                      79                       118

                              Richmond P&DC                       20                        30

                              Dulles P&DC                          1                         2

                              Total                              100                       150

Objectives, Scope,            The objectives of our audit were to determine whether
and Methodology               national trailer lease fleet management was effective and to
                              identify opportunities to save money. This report is one in a
                              series and focuses on the Capital Metro Area.

                              Seventy-nine percent of the 150 trailers allocated to the
                              Capital Metro Area were assigned to the Washington BMC.
                              Because such a large percentage of the trailers assigned to
                              the Capital Metro Area were located at the Washington
                              BMC, we decided to limit our physical inspections and
                              analysis of trailers to those at that facility.




                                                   3
Vehicle Management – National Trailer Lease Requirements –                         NL-AR-06-013
 Capital Metro Area



                              During our work, we interviewed Postal Service officials at
                              headquarters and in the Capital Metro Area and visited the
                              Washington BMC and other Capital Metro Area facilities.
                              We observed and photographed operations, inspected
                              trailers, interviewed supervisors and employees, and
                              examined applicable Postal Service policies and
                              procedures. In addition, we examined the National Trailer
                              Lease and other relevant Postal Service documents and
                              records. We discussed our conclusions and observations
                              with management officials and have included their
                              comments where appropriate.

                              During our audit, we examined computer data in
                              management’s Transportation Information Management
                              Evaluation System (TIMES) for the period March 1, 2003, to
                              September 30, 2005, using computer-assisted analysis
                              techniques. We did not audit or comprehensively validate
                              the data; however, we noted several data quality
                              weaknesses that constrained our work. For example,
                              TIMES had missing or inaccurate records.

                              In addition, Washington BMC inventory records were not
                              sufficient to allow us to readily identify the location and use
                              of all trailers not physically present at that facility, or
                              determine how long they had been deployed. As a result,
                              we could not determine how management was using those
                              trailers and whether they actually needed them.

                              Even though data limitations constrained our work, we were
                              able to support our audit conclusions by applying alternate
                              audit procedures, including source document examination,
                              observation, physical inspection, and discussion with
                              responsible officials. We also applied conservative
                              principles to our monetary impact estimates. For more
                              detailed information about our monetary impact
                              methodology see Appendix B.

                              We conducted work associated with this report from
                              September 2003 through September 2006, in accordance
                              with generally accepted government auditing standards, and
                              included such tests of internal controls as we considered
                              necessary under the circumstances. Work on this audit was
                              delayed because of other audit priorities.




                                                 4
Vehicle Management – National Trailer Lease Requirements –                       NL-AR-06-013
 Capital Metro Area


Prior Audit Coverage           Our report, Trailer Requirements – Northeast Area (Report
                               Number NL-AR-04-006, dated September 30, 2004),
                               concluded that during the period January 1, 2002, through
                               February 29, 2004, the Postal Service may have missed an
                               opportunity to save more than $2 million because it leased
                               250 trailers more than needed to transport mail. The report
                               also stated the Postal Service could still save more than
                               $7.3 million over the remaining life of the National Trailer
                               Lease plus renewal options by returning unneeded trailers.
                               Our audit also concluded that unneeded trailers were leased
                               because the area was using roadworthy trailers to store
                               equipment and had not analyzed underlying transportation
                               or storage requirements in accordance with Postal Service
                               policy.




  National Trailer Lease
equipment used for storage
    at the Springfield,
     Massachusetts
           BMC.

    Headquarters officials
 explained that storing mail
   transport equipment in
      trailers was not in
  accordance with Postal
        Service policy.




                               Management agreed with our recommendations, agreed
                               that they would continue to analyze trailer requirements,
                               acknowledged that data contained in TIMES was flawed,
                               and stated that they would return unneeded trailers. For
                               additional prior audit coverage see Appendix A.




                                                 5
Vehicle Management – National Trailer Lease Requirements –                         NL-AR-06-013
 Capital Metro Area


                                      AUDIT RESULTS

Trailer Use                   The Postal Service can more effectively manage the
                              National Trailer Lease fleet by improving fleet management
                              control. Because of fleet management control weaknesses,
                              the Postal Service may have missed an opportunity to save
                              $402,478 by allocating more trailers to the Capital Metro
                              Area than the area needed.




   National Trailer Lease
    equipment near the
     Washington BMC
      March 23, 2004.




                              We reviewed trailer usage during the period March 1, 2003,
                              to September 30, 2005, and concluded the Capital Metro
                              Area did not have the inventory control necessary to identify
                              unneeded trailers so those trailers could be returned to the
                              leasing contractor. However, we believe the Postal Service
                              has an opportunity to save $1,514,170 by taking advantage
                              of the lease provisions that allow the Postal Service to
                              return unneeded trailers.

Inventory Control             On September 29, 2003, we visited the Washington BMC
                              and, in response to our inquiries, BMC officials:

                                  •   Could not account for 12 trailers, or about 10 percent
                                      of the 118 trailers allocated to them.

                                  •   Could not explain how management used the
                                      missing trailers.

                                  •   Could not verify that the missing trailers were actually
                                      needed to fill valid transportation requirements.


                                                 6
Vehicle Management – National Trailer Lease Requirements –                                NL-AR-06-013
 Capital Metro Area



                              Officials could not locate the trailers because inventory
                              records were incomplete. The unaccounted for trailers were
                              worth about $240,000. We subsequently located the trailers
                              using alternative audit procedures, including analysis of
                              TIMES data. According to the data, the 12 missing trailers
                              were located at facilities throughout the Capital Metro Area,
                              but had not been moved for an average of more than
                              7 months.

                                         Missing Trailer Analysis – September 28, 2003
 National lease trailers
    cost the Postal         Trailer                                                        Days not
 Service $10.21 every       Number              Location                  Last Moved        Used
          day.
                             035627   Baltimore Processing P&DC         April 28, 2003       154
     Washington BMC          072143   Baltimore P&DC                     April 4, 2003       178
   managers could not        072159   Southern Maryland P&DC            April 18, 2003       164
     determine where         20Z004   Suburban Maryland P&DC          November 14, 2002      319
  these trailers were or     20Z005   Calvert Post Office               June 9, 2003         112
    for what they were       20Z009   Suburban Maryland P&DC            June 7, 2003         114
          used.              20Z014   Suburban Maryland P&DC            May 25, 2003         127
                             20Z031   Calvert Post Office               June 9, 2003         112
  If these trailers were     20Z037   Baltimore P&DC                  February 21, 2002      585
      not needed, the        20Z058   Calvert Post Office               April 21, 2002       526
      Postal Service         20Z070   Baltimore P&DC                    June 4, 2003         117
         incurred            20Z114   V Street Station, Washington      June 14, 2003        107
      approximately
        $27,000 in          Total days without use                                         2,615
   unnecessary costs

                              On August 3, 2005, we again visited the Washington BMC
                              and BMC transportation managers could not account for 36
                              (almost one-third) of their 118 trailers. The managers




  Unused National Trailer
 Lease equipment located
  at the Washington BMC
      October 18, 2005.




                                                  7
Vehicle Management – National Trailer Lease Requirements –                                NL-AR-06-013
 Capital Metro Area



                              told us they generally employed National Trailer Lease
                              equipment locally, frequently used it to stage mail at the
                              BMC, and required trailers deployed away from the BMC to
                              be returned within 48 hours. According to TIMES data (as
                              reflected in the chart below) 28 of the missing trailers had
                              not been used for more than 10 days or had been idle for an
                              average of more than 53 days and, during that period of
                              inactivity, cost the Postal Service more than $15,000.

                                             Trailer Use Analysis – August 3, 2005

                             Trailer                                                       Days not
                             Number              Location                 Last Moved        Used

                             20Z001    Curseen Morris P&DC              July 22, 2005         12
 Senior Postal Service       20Z004    Suburban P&DC Annex              May 28, 2005          67
   officials explained       20Z011    Suburban P&DC Annex              May 29, 2005          66
   that one benefit of       20Z012    Baltimore Airmail Center         May 22, 2005          73
  the National Trailer       20Z015    Suburban P&DC                    May 16, 2005          79
     Lease was that          20Z018    Curseen Morris P&DC               July 16,2005         18
 unused trailers could       20Z020    Suburban P&DC                    June 1, 2005          63
   be returned to the        20Z040    Southern Maryland P&DC            April 7, 2005       118
  leasing contractor.        20Z043    Baltimore P&DC                   May 27, 2005          68
                             20Z045    Suburban P&DC Annex               July 1, 2005         33
    The Capital Metro        20Z057    Suburban P&DC Annex              July 23, 2005         11
  Area did not have the      20Z060    Curseen Morris P&DC              July 13, 2005         21
   controls needed to        20Z061    Suburban P&DC                    June 23, 2005         41
     identify unused         20Z063    Suburban P&DC                    June 29, 2005         35
         trailers.           20Z065    Curseen Morris P&DC              July 21, 2005         13
                             20Z071    Suburban P&DC Annex               July 9, 2005         25
  The trailers identified    20Z078    Suburban P&DC Annex              July 15, 2005         19
    in the chart at the      20Z081    Unknown – could not locate       July 20, 2005         14
   right were not used       20Z082    Southern Maryland P&DC            April 7, 2005       118
   for a total of at least   20Z083    Curseen Morris P&DC              July 23, 2005         11
      1,502 days and         20Z084    Suburban P&DC                    June 7, 2005          57
    caused the Postal        20Z087    Curseen Morris P&DC              April 25, 2005       100
         Service to          20Z088    Suburban P&DC                    July 19, 2005         15
  unnecessarily spend        20Z090    Curseen Morris P&DC              July 16, 2005         18
    more than $15,000.       20Z112    South Jersey P&DC                July 18, 2005         16
                             389416    Baltimore P&DC                  March 29, 2005        127
                             389433    V Street Station, Washington     July 24, 2005         10
                             389523    Curseen Morris P&DC            November 22, 2004      254

                             Total days without use                                        1,502


Trailer Usage                 In addition to analyzing trailer inventory, we analyzed trailer
                              usage. As depicted by the chart on the following page,
                              Postal Service TIMES data indicated:

                                  •    On average, only 40 trailers (or less than one-half of
                                       the total 118 trailers allocated to the Washington
                                       BMC) were used every day.



                                                  8
Vehicle Management – National Trailer Lease Requirements –                               NL-AR-06-013
 Capital Metro Area


                                    •   In more than 2 years, the maximum number of
                                        trailers used on a single day was 64 and that was
                                        achieved only on April 13, 2005.

                                    •   Consequently, 54 trailers (or more than 45 percent of
                                        the 118 trailers allocated to the Washington BMC)
                                        were never needed to move mail.

                                           WASHINGTON BMC TRAILER USAGE
      There were                           MARCH 1, 2003 – SEPTEMBER 30, 2005     APRIL 13, 2005
      118 trailers
                      140
      assigned to the
      Washington BMC. 120
      The maximum       100
                                    54 TRAILERS NEVER NEEDED TO TRANSPORT MAIL
      number of trailers 80
      used on a single
      day in any month. 60
                           40
      The average
      number of trailers   20
      used in any           0
      month.
                           MAR 03        SEP 03       MAR 04      SEP 04        MAR 05       SEP 05


Trailer Requirements            The National Trailer Lease was intended to provide trailers
                                for the transportation of mail and equipment. The
                                Washington BMC had more national lease equipment than
                                needed for transportation because officials allocated the
                                118 trailers without properly analyzing underlying
                                transportation requirements to determine how many trailers
                                were actually necessary for that purpose.

                                    •   Capital Metro Area officials explained that, instead of
                                        analyzing underlying transportation requirements, the
                                        method for allocating trailers assumed the existence
                                        of a locally leased trailer in place before the National
                                        Trailer Lease implied a valid need. Consequently,
                                        management replaced locally leased trailers one-for-
                                        one. Officials also stated that records supporting the
                                        need for the previous inventory of locally leased
                                        trailers were not available.

                                    •   The Washington BMC Manager explained the BMC
                                        was initially allocated 80 trailers and then given
                                        38 more in February 2003. The manager explained
                                        the BMC did not request the additional trailers, did
                                        not need them, and had no supporting documents to
                                        justify them. The 38 unnecessary trailers cost the
                                        Postal Service more than $140,000 every year.


                                                  9
Vehicle Management – National Trailer Lease Requirements –                        NL-AR-06-013
 Capital Metro Area




                                National lease trailers are “roadworthy” and cost $10.21 per
                                day. Because Postal Service officials allocated more
                                trailers to the Washington BMC than needed, the BMC used
                                the trailers for other than “over-the-road” purposes when
                                more cost-effective alternatives might have saved the Postal
                                Service money. For example:

                                Equipment Storage – Our inspections of National Trailer
                                Lease equipment in the yard at the Washington BMC
                                identified trailers loaded with equipment. However, a policy
                                letter from Postal Service Headquarters dated August 11,
                                2004 (see Appendix C) pointed out that the practice of




  This national lease trailer
  was loaded with pallets,
 cardboard containers, and
 trash on February 3, 2005.

   Storing equipment in
   roadworthy trailers is
   unnecessarily costly.

 Equipment can be stored in
  non-roadworthy trailers at
 less cost, or in old “Postal
Service-owned” trailers at no
            cost.




                                storing equipment in trailers leased for transportation was
                                excessive and costly. The letter stipulated that any trailer
                                storage requirement be analyzed and validated in
                                accordance with Postal Service policy and that it was Postal
                                Service policy to fill storage requirements with
                                non-roadworthy trailers at lower rates.



                                                 10
Vehicle Management – National Trailer Lease Requirements –                          NL-AR-06-013
 Capital Metro Area



                              Staging mail for BMC operations – Washington BMC
                              managers told us that because of space constraints within
                              the BMC plant, trailers were needed in the yard to
                              temporarily hold mail to be processed. They explained that
                              trailers used for staging mail did not need to be roadworthy,
                              but said using roadworthy trailers provided flexibility since
                              employees could use the same trailers “over-the-road”. The
                              Washington BMC did not have records to indicate how
                              many trailers were needed for staging mail, but the
                              information provided was consistent with information about
                              mail staging that we obtained in other Postal Service areas
                              where officials explained trailers were needed as an
                              extension of the plant. Consequently, we believe the Postal
                              Service has an opportunity to save money if management
                              analyzes mail staging requirements and officials consider
                              less costly options, such as using non-roadworthy trailers or
                              any other mail staging alternatives that may be available.

Exit Briefings and            On May 22, 2006, we met with Capital Metro officials and on
Subsequent Events             June 1, 2006, we met with headquarters Supply
                              Management officials. The purpose of the meetings was to
                              discuss our audit findings and recommendations. At the
                              headquarters meeting, management acknowledged trailer
                              fleet inventory control weaknesses and said the individual
                              areas had not fully analyzed how many trailers they needed.
                              However, management explained that they were in the final
                              stages of negotiating a 6-year lease renewal and that the
                              new lease would probably reduce the $10.21 per day cost
                              and improve inventory control by requiring each trailer to be
                              equipped with a satellite tracking device.

                              On June 23, 2006, management notified the U.S. Postal
                              Service Office of Inspector General (OIG) that the new
                              6-year National Trailer Lease would:

                                  •   Reduce lease cost to $10.07 per trailer per day.

                                  •   Terminate all local contract terms and be effective
                                      nationwide as of the contract date.

                                  •   Require the contractor to fully install satellite trailer
                                      tracking systems on all trailers by November 1, 2006.




                                                 11
Vehicle Management – National Trailer Lease Requirements –                       NL-AR-06-013
 Capital Metro Area



                                  •   Include 4,757 trailers, but allow management to
                                      expand or reduce the trailer fleet depending on
                                      operational requirements.

                              As of the date of our report, the National Trailer Lease
                              renewal had not yet been finalized. Management agreed
                              that they would provide a copy of the renewal as soon as it
                              was finalized so we could examine its provisions.

Recommendation                We recommend the Vice President, Capital Metro Area
                              Operations:

                                  1. Strengthen inventory control over National Trailer
                                     Lease equipment allocated to the Capital Metro Area.

Management’s                  Management agreed with our finding and recommendation.
Comments                      They stated that all managers with custody of National
                              Lease trailers would report the status of the trailers to the
                              Capital Metro Area every day. Management also explained
                              they had acquired the Vehicle Transportation Analysis and
                              Performance System to monitor trailers at the Washington
                              BMC. Management’s comments, in their entirety, are
                              included in Appendix E.

Recommendation                We recommend the Vice President, Capital Metro Area
                              Operations:

                                  2. Analyze the number of trailers needed to transport
                                     mail and equipment and return unneeded trailers to
                                     the control of Postal Service Headquarters for
                                     reallocation or return to the leasing contractor.

Management’s                  Management agreed with our finding and recommendation.
Comments                      They stated they were currently undertaking a study to
                              determine the specific number of leased trailers required,
                              and would return any excess trailers to the control of Postal
                              Service Headquarters.

Recommendation                We recommend the Vice President, Capital Metro Area
                              Operations:

                                  3. Analyze storage requirements and procure storage
                                     space in the most cost-effective manner.



                                                 12
Vehicle Management – National Trailer Lease Requirements –                          NL-AR-06-013
 Capital Metro Area



Management’s                  Management agreed with our finding and recommendation.
Comments                      They explained that they were developing both long and
                              short term solutions which included replacing National
                              Trailer Lease equipment with less costly non-roadworthy
                              trailers with savings they estimated at more than $580,000
                              over 10 years.

Recommendation                We recommend the Vice President, Capital Metro Area
                              Operations:

                                  4. Analyze mail-staging requirements and procure
                                     needed staging capacity in the most cost-effective
                                     manner.

Management’s                  Management agreed with our finding and recommendation.
Comments                      They explained that it was not their practice to stage mail on
                              trailers for extended periods of time, that their analysis of
                              Washington BMC determined sufficient staging capacity
                              currently existed, and that the use of trailers for long-term
                              staging was not required.

Other Management              Management stated that they were in general agreement
Comments                      with all of our findings, but stipulated they could not validate
                              the monetary impact of our findings until they conducted all
                              the analyses we recommended.

Evaluation of                 Management’s comments are responsive to our findings
Management’s                  and recommendations. We consider management’s
Comments                      actions, taken or planned, sufficient to address the
                              recommendations we made in our report.




                                                 13
 Vehicle Management – National Trailer Lease Requirements –                     NL-AR-06-013
  Capital Metro Area


                   APPENDIX A. PRIOR REPORT COVERAGE
This appendix identifies our various reports on the National Trailer Lease Phase I and
Phase II, which, either collectively or individually, concluded the Postal Service did not
properly analyze the trailer procurement decision. The purpose of this appendix is to
cross-reference the specific issues to our various reports.

   “The Postal Service did not adequately consider the number of trailers needed
   for operations and, consequently, may have leased more trailers than
   needed.”

           •   New York Metro Area Operational Use of Trailers (Report Number
               TD-MA-03-001, dated January 29, 2003).

   “The Postal Service could have saved money by purchasing needed trailers
   instead of leasing them.”

           •   Trailer Lease Justification (Report Number TD-AR-02-002, dated
               March 29, 2002).

           •   New York Metro Area Trailer Acquisition – Lease Versus Buy (Report
               Number TD-AR-03-009, dated March 31, 2003).

    “The acquisition decision was not supported by reliable data, necessary
    documentation, or adequate records.”

           •   Trailer Lease Justification (Report Number TD-AR-02-002, dated
               March 29, 2002).

           •   New York Metro Area Trailer Acquisition – Lease Versus Buy (Report
               Number TD-AR-03-009, dated March 31, 2003).

    “The acquisition decision did not comply with Postal Service policy or the
    analytical discipline commensurate with a $250 million trailer acquisition.”

           •   Trailer Lease Justification (Report Number TD-AR-02-002, dated
               March 29, 2002).

           •   New York Metro Area Trailer Acquisition – Lease Versus Buy (Report
               Number TD-AR-03-009, dated March 31, 2003).




                                                  14
 Vehicle Management – National Trailer Lease Requirements –                                     NL-AR-06-013
  Capital Metro Area


        APPENDIX B. COST OF EXCESS TRAILERS NOT USED TO
                 TRANSPORT MAIL AND EQUIPMENT

The Postal Service may have missed the opportunity to save $402,478 because it
leased more trailers than the Washington BMC needed:

Capital Metro Contract 207AL Term: March 15, 2001, to March 14, 2007 (6 years)
Renewal option period for Capital Metro: July 1, 2006, to June 30, 2012*

Number of trailers at Washington BMC from March 2003 to present: 118

Cost of leased trailer per day: $10.21
_____________________________________________________________________
Trailers leased at the Washington BMC:                                                                 118

Minus highest number of trailers with recorded use on any 1 day between
March 1, 2003, to September 30, 2005:                                                                   64

Minimum excess number of trailers leased:                                                               54
______________________________________________________________________
Number of days during 2 year missed opportunity period: ***                                            730

$10.21 per day x 54 trailers x 730 days =                                                       $402,478

The Postal Service has an opportunity to save $1,514,170 during the next 10 years
of the National Trailer Lease by returning unneeded trailers:
Cost of leased trailer per day: $10.07

Trailers leased at the Washington BMC:                                                                 118

Minus maximum number of trailers with recorded use on any 1 day between
March 1, 2003, to September 30, 2005:                                                                   64

Minimum excess number of trailers leased:                                                               54

Potential 10 year savings from July 1, 2006,* through June 30, 2016

$10.07 per day x 54 trailers x 365 days x 10 years =                                         ** $1,984,797

Present value of savings using the Postal Service Finance discount rate of 5.25% =               $1,514,170

* July 1, 2006, is the beginning of a new National Trailer Lease negotiated by Postal Service
Headquarters replacing the current lease.

** Any associated costs to replace national lease trailers with alternative storage methods for material and
equipment will affect the potential savings for the remaining life plus renewal optional of the lease.

***OIG policy limits calculations for missed opportunity to a 2-year period. The data analyzed covered a
31 month period.



                                                    15
Vehicle Management – National Trailer Lease Requirements –   NL-AR-06-013
 Capital Metro Area




                                      APPENDIX C

POLICY FOR EQUIPMENT STORED IN LEASED (SERVICE) TRAILERS




                                                 16
Vehicle Management – National Trailer Lease Requirements –              NL-AR-06-013
 Capital Metro Area




                                         APPENDIX D

                       ACRONYMS USED IN THIS REPORT
BMC           Bulk Mail Center
DAR           Decision Analysis Report
FOIA          Freedom of Information Act
OIG           U.S. Postal Service Office of Inspector General
P&DC          Processing and Distribution Center
TIMES         Transportation Information Management Evaluation System




                                                 17
Vehicle Management – National Trailer Lease Requirements –   NL-AR-06-013
 Capital Metro Area


                 APPENDIX E. MANAGEMENT’S COMMENTS




                                                 18
Vehicle Management – National Trailer Lease Requirements –   NL-AR-06-013
 Capital Metro Area




                                                 19
